Case: 20-51010

Document: 00515935371

Page: 1

Date Filed: 07/13/2021

fUntteb States Court of appeals
for tfje Jftftl) Circuit
United States Court of Appeals
Fifth Circuit

No. 20-51010

FILED
July 13, 2021

Al-Kareem Rasool-Rachmaan Collier,

Lyle W. Cayce
Clerk

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 6:20-CV-908

ORDER:
IT IS ORDERED that Appellant’s motion for a certificate of
appealability is DENIED.

Patrick E. Higginbotham
United States Circuit Judge

Gasei^^HD2(^cv-(nOMSTnadc^^t©aP^Wi Page: 1
Page 1 of 2

Date Filed: C!8HQ#2021

©uttefc States; Court of ^ppeate
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

No. 20-51010

FILED
July 13,2021
Lyle W. Cayce
Clerk

Al-Kareem Rasool-Rachmaan Collier

Petitioner—Appellant^
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 6:20-CV-908

ORDER:
IT IS ORDERED that Appellant’s motion for a certificate of
appealability is DENIED.

a

$
**

£

*o

o

&

M

A True Copy
Certified order issued Aug 04, 2021
'dwt* W. C(M*tA
Clerk, U.S. Court of Appeals, Fifth Circuit

Patrick E. Higginbotham
United States Circuit Judge

Case 6:20-cv-00908-ADA Document 6 Filed 11/13/20 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
AL-KAREEM RASOOL-RACHMAAN
COLLIER #2259492
V.
BOBBY LUMPKIN

§
§
§
§
§
§

W-20-CA-908-ADA

ORDER
Before the Court is Petitioner's Petition For a Writ of Habeas Corpus by a Person
in State Custody. Petitioner is proceeding pro se and in forma pauperis. For the reasons
set forth below, Petitioner's application for writ of habeas corpus is dismissed with
prejudice as time-barred.
Procedural History
Petitioner indicates he was convicted on March 29, 2019. He did not appeal.
Petitioner indicates he filed a state habeas petition on August 12, 2020 which was
denied on September 14, 2020. Petitioner filed his federal habeas application on
September 30, 2020.
DISCUSSION
Petitioner's application is barred by the one-year statute of limitations. Federal
law establishes a one-year statute of limitations for state inmates seeking federal
habeas corpus relief. See 28 U.S.C. § 2244(d). That section provides, in relevant part:
(d)(1) A 1-year period of limitation shall apply to an application for a writ
of habeas corpus by a person in custody pursuant to the judgment of a
State court. The limitation period shall run from the latest of—
l

Case 6:20-cv-00908-ADA Document 6 Filed 11/13/20 Page 2 of 7

(A) the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such
review;
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws of
the United States is removed, if the applicant was prevented from
filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively applicable
to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
(2) The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any period of
limitation under this subsection.
Petitioner's conviction became final, at the latest, on April 29, 2019. Therefore,
Petitioner had until April 29, 2020, to timely file his federal application. Petitioner did
not execute his federal application for habeas corpus relief until September 30, 2020,
five months after the limitations period had expired. Petitioner's state application for
habeas corpus likewise did not operate to toll the limitations period, because it was filed
after the limitations period had already expired. See Scott v. Johnson, 227 F.3d 260,
263 (5th Cir. 2000) (state application for habeas corpus relief filed after limitations
period expired does not toll the limitations period).
Petitioner appears to be contending he is eligible for equitable tolling. "[A]
litigant seeking equitable tolling bears the burden of establishing two elements: (1) that
he has been pursuing his rights diligently, and (2) that some extraordinary circumstance
stood in his way." Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005). Although the Fifth
2

Case 6:20-cv-00908-ADA Document 6 Filed 11/13/20 Page 3 of 7

Circuit has permitted equitable tolling in certain cases, it requires a finding of
"exceptional circumstances." Davis v. Johnson, 158 F.3d 806, 811 (5th Cir. 1998)
(finding "exceptional circumstances" in a case in which the trial court considering the
petitioner's application under Section 2254 granted the petitioner several extensions of
time past the AEDPA statute of limitations). The Fifth Circuit has consistently found no
exceptional circumstances in other cases where petitioners faced non-routine logistical
hurdles in submitting timely habeas applications. See e.g. Felder v. Johnson, 204 F.3d
168, 171 (5th Cir. 2000) (proceeding pro se is not a "rare and exceptional"
circumstance because it is typical of those bringing a § 2254 claim). As the Fifth Circuit
has pointed out, "Congress knew AEDPA would affect incarcerated individuals with
limited access to outside information, yet it failed to provide any tolling based on
possible delays in notice." Fisher v. Johnson, 174 F.3d 710, 714 (5th Cir. 1999). The
Fifth Circuit explained that equitable tolling "applies principally where the plaintiff is
actively misled by the defendant about the cause of action or is prevented in some
extraordinary way from asserting his rights," and noted that "excusable neglect" does
not support equitable tolling. Coleman v. Johnson, 184 F.3d 398, 402 (5th Cir. 1999)
(quoting Rashidi v. America President Lines, 96 F.3d 124, 128 (5th Cir. 1996)).
Petitioner asserts he has been as diligent as possible. Petitioner provides a
timeline of reasons for his delay. Petitioner explains why he had some delays before his
conviction and after filing his state habeas petition. However, Petitioner provides no
reasons whatsoever for the delay that matters for the calculation of the limitations
period. Petitioner admits that from the time of his conviction to the time of his state
3

Case 6:20-cv-00908-ADA Document 6 Filed 11/13/20 Page 4 of 7

habeas filing was over a year, but fails to explain any reason for that delay, at which
point his federal limitations period had already expired. Unfortunately for Petitioner, a
lack of familiarity with the legal process or lack of legal assistance during the filing
period does not merit equitable tolling. See Turner v. Johnson, 177 F.3d 390, 392 (5th

Cir. 1999).
Petitioner also appears to be contending that the untimeliness of his application
should be excused because he is actually innocent. In McQuiggin v. Perkins, 133 S. Ct.
1924 (2013), the Supreme Court held a prisoner filing a first-time federal habeas
petition could overcome the one-year statute of limitations in § 2244(d)(1) upon a
showing of "actual innocence" under the standard in Schlup v. Delo, 513 U.S. 298, 329
(1995). A habeas petitioner, who seeks to surmount a procedural default through a
showing of "actual innocence," must support his allegations with "new, reliable
evidence" that was not presented at trial and must show that it was more likely than
not that, in light of the new evidence, no juror, acting reasonably, would have voted to
find the petitioner guilty beyond a reasonable doubt. See Schlup, 513 U.S. at 326-27
(1995); see also House v. Bell, 547 U.S. 518 (2006) (discussing at length the evidence
presented by the petitioner in support of an actual-innocence exception to the doctrine
of procedural default under Schlup). "Actual innocence" in this context refers to factual
innocence and not mere legal sufficiency. Bousely v. United States, 523 U.S. 614, 623-

624 (1998).
"The Supreme Court has not explicitly defined what constitutes 'new reliable
evidence' under the Schlup actual-innocence standard." Hancock v. Davis, 906 F.3d
4

Case 6:20-cv-00908-ADA Document 6 Filed 11/13/20 Page 5 of 7

387, 389 (5th Cir. 2018). However, the Fifth Circuit has made clear that "evidence does
not qualify as 'new' under the Schlup actual-innocence standard if 'it was always within
the reach of [petitioner's] personal knowledge or reasonable investigation.'" Hancock,
906 F.3d at 390 (quoting Moore v. Quarterman, 534 F.3d 454, 465 (5th Cir. 2008)).
Petitioner appears to argue that the evidence was insufficient to sustain his conviction,
but he does not argue that he was factually innocent and fails to provide any new
evidence whatsoever that would support a claim of actual innocence.
The record does not reflect that any unconstitutional state action impeded
Petitioner from filing for federal habeas corpus relief prior to the end of the limitations
period. Furthermore, Petitioner has not shown that he could not have discovered the
factual predicate of his claims earlier. Finally, the claims do not concern a constitutional
right recognized by the Supreme Court within the last year and made retroactive to
cases on collateral review.
CONCLUSION
Petitioner's application for habeas corpus relief is dismissed with prejudice as
time-barred.

5

Case 6:20-cv-00908-ADA Document 6 Filed 11/13/20 Page 6 of 7

CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the court of appeals from a final order in a
habeas corpus proceeding "unless a circuit justice or judge issues a certificate of
appealability." 28 U.S.C. § 2253(c) (1)(A). Pursuant to Rule 11 of the Federal Rules
Governing Section 2254 Cases, effective December 1, 2009, the district court must
issue or deny a certificate of appealability when it enters a final order adverse to the
applicant.
A certificate of appealability may issue only if a petitioner has made a substantial
showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Supreme
Court fully explained the requirement associated with a "substantial showing of the
denial of a constitutional right" in Slack v. McDaniel, 529 U.S. 473, 484 (2000).

In

cases where a district court rejected a petitioner's constitutional claims on the merits,
"the petitioner must demonstrate that reasonable jurists would find the district court's
assessment of the constitutional claims debatable or wrong." Id. "When a district court
denies a habeas petition on procedural grounds without reaching the petitioner's
underlying constitutional claim, a COA should issue when the petitioner shows, at least,
that jurists of reason would find it debatable whether the petition states a valid claim of
the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling." Id.
In this case, reasonable jurists could not debate the dismissal or denial of the
Petitioner's section 2254 petition on substantive or procedural grounds, nor find that
the issues presented are adequate to deserve encouragement to proceed. Miller-El v.
6

Case 6:20-cv-00908-ADA Document 6 Filed 11/13/20 Page 7 of 7

Cockrell, 537 U.S. 322, 327 (2003) (citing Slack, 529 U.S. at 484). Accordingly, a
certificate of appealability shall not issue.
It is therefore ORDERED that Petitioner's application for writ of habeas corpus is
DISMISSED WITH PREJUDICE as time-barred.
It is finally ORDERED that a certificate of appealability is DENIED.
SIGNED on November 13, 2020

ALAN D ALBRIGHT
UNITED STATES DISTRICT JUDGE

7

